  January 16, 2003




Financial Management

Reopening of Contracts in the
Mechanization of Contract
Administration Services System
(D-2003-048)




      Office of the Inspector General
                   of the
          Department of Defense
                                    Constitution of
                                   the United States

    A Regular Statement and Account of the Receipts and Expenditures of all public
    Money shall be published from time to time.
                                                               Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ACO                   Administrative Contracting Officer
ACRN                  Accounting Classification Reference Number
CAR                   Contract Administrative Report
DCMA                  Defense Contract Management Agency
DFAS                  Defense Finance and Accounting Service
DLA                   Defense Logistics Agency
FFP                   Firm Fixed Price
MOCAS                 Mechanization of Contract Administration Services
NLA                   Notice of Last Action
PCO                   Procurement Contracting Officer
          Office of the Inspector General of the Department of Defense
Report No. D-2003-048                                                    January 16, 2003
   Project No. D2000FJ-0268.003

         Reopening of Contracts in the Mechanization of Contract
                    Administration Services System

                                  Executive Summary

Who Should Read This Report and Why? This report should be read by acquisition
and finance and accounting officials responsible for contract maintenance and closeout,
as well as those responsible for the development of a new Defense contract payment
system. The report discusses the lack of controls that cause inadvertent closure of
contracts that must then be reopened and the effect of this process on the transition to a
new payment system.

Background. The Defense Finance and Accounting Service planned to replace the
payment and entitlement function performed by the Mechanization of Contract
Administration Services system with a new or modified system. In anticipation of
transitioning to the new contract payment system, the Defense Finance and Accounting
Service and the Defense Contract Management Agency were attempting to close out as
many contracts as possible.

Results. The Defense Finance and Accounting Service, Columbus and the Defense
Contract Management Agency closed a substantial number of contracts prematurely and
had to subsequently reopen them. In July 2002, the Mechanization of Contract
Administration Services system contained 10,819 contracts that had been closed out and
later reopened. Of these contracts, 6,631 were reopened in the 18-month period from
January 2, 2001, to July 3, 2002, or on average, 368 contracts per month. Although the
Defense Finance and Accounting Service, Columbus identified their errors that resulted
in premature contract closure, additional improvements were needed to proactively
prevent errors before they occurred. Likewise, the Defense Contract Management
Agency needed to do a better job assisting the Defense Finance and Accounting Service,
Columbus in the closure process on contracts for which it has primary responsibility.
Contracts closed out in error cause the unnecessary use of resources at both Defense
Finance and Accounting Service, Columbus and throughout the contracting community.

Management Comments and Audit Response. The Executive Director, Contract
Management Operations, Defense Contract Management Agency planned to form a
Rapid Improvement Team to address why contracts reopen, review closeout procedures,
and recommend process improvements to prevent contracts from reopening in the future.
The Director stated that less than one percent of the 321,000 contracts it administers
require an obligation review. The Director indicated that the recommendation to require
periodic obligation reviews at the accounting classification reference number level during
the life cycle of a contract would require two or more reviews on each contract and would
significantly increase workload without changing the number of contracts that reopen.
The Director stated that if an unexplained payment discrepancy is discovered, an
obligation recap and a request for audit are prepared and submitted to the Defense
Finance and Accounting Service, which he believed was sufficient to assist DFAS with
validating the accuracy of contract obligations. The Director, Commercial Pay Systems,
Defense Finance and Accounting Service, Columbus concurred with the finding and all
recommendations. The Director, stated that Indefinite Delivery Order, Blanket Purchase
Agreement, and Basic Ordering Agreement type contracts can only be closed by the
administrative contracting officer. Therefore, the Director does not believe any
additional notification needs to be made to the administrative contracting officer. The
Director agreed to revise and reissue the Interim Guidance for the Mechanization of
Contract Administration Services Contract Closeout checklist.

Comments from the Defense Contract Management Agency on the draft of this report
were responsive. Although the Director nonconcurred with performing obligation
reviews for each contract administered, the Director proposed alternative actions that are
responsive. The use of the proposed Rapid Improvement Team should help improve the
process, through its review of current procedures and study of methods that prevent
contracts from being inadvertently reopened in the future. Comments from the Defense
Finance and Accounting Service, were partially responsive. We do not agree with the
Director that Indefinite Delivery Order, Blanket Purchase Agreement, and Basic Ordering
Agreement type contracts can only be closed by the administrative contracting officer.
Contracts that are coded R, S, T, U, V, or W will close out of the Mechanization of
Contract Administration Services system without the administrative contracting officer’s
approval. Some approval notification must be made to the administrative contracting
officer that the contracts are complete and can be closed prior to their closure in the
Mechanization of Contract Administration Services system. We request that the
Director, Defense Finance and Accounting Service, Columbus provide comments on the
final report by March 17, 2003.




                                            ii
Table of Contents

Executive Summary                                      i

Background                                            1

Objectives                                            1

Finding
     Reopening of Closed Contracts                    2

Appendixes
     A. Scope and Methodology                         12
         Management Control Program Review            12
         Prior Coverage                               13
     B. Report Distribution                           14

Management Comments
             Defense Finance and Accounting Service   17
             Defense Contract Management Agency       20
Background
    This is the third in a series of planned reports on the efforts the Defense Finance
    and Accounting Service (DFAS), Columbus and the Defense Contract
    Management Agency (DCMA) are making to transition to a new payment system.
    At the time of the audit, DFAS planned to replace the payment and entitlement
    function performed by the Mechanization of Contract Administration Services
    (MOCAS) system with a new or modified system.

    DFAS and DCMA were planning for an orderly transition to a new payment
    system and were focusing attention on transitioning only those contracts in
    MOCAS that were active or had continuing requirements to be in a payment
    information system. DFAS was assisting DCMA to close all completed contracts
    to minimize work and ensure the success of the transition. It was important that
    DFAS and DCMA close contracts properly to prevent the need for reopening
    them.

    Contracts may be reopened when a modification is received that increases or
    decreases the amount of a contract, or when a financial transaction and/or
    administrative action is received. If a contract is closed with funds remaining, it
    is the responsibility of the DFAS, Columbus accounting technician to research the
    contract to determine whether it needs to be reopened.

    DCMA administrative contracting officers (ACOs) reopen contracts for various
    other reasons including requests from customers. Customers include the
    Congress, the procurement contracting officer (PCO), funding activities, contract
    auditors, and contractors. Once a contract is closed, the ACO must provide
    DFAS, Columbus with a Request for MOCAS Action (Defense Logistics Agency
    Form 1797) to reopen a contract in MOCAS.

    At the time of audit, DFAS, Columbus records showed that MOCAS contained
    10,819 contracts that had been reopened. The value of all obligations on those
    contracts was $37.5 billion.

Objective
    The overall audit objective was to evaluate actions to close completed contracts
    and transition from MOCAS to a new or modified system. We focused this part
    of the audit on closed contracts that had to be subsequently reopened. See
    Appendix A for a discussion of the audit scope and methodology.




                                         1
           Reopening of Closed Contracts
           In anticipation of transitioning to a new DoD contract payment system,
           DFAS, Columbus and DCMA were attempting to close as many contracts
           as possible. However, a substantial number of contracts were being closed
           prematurely and as a result, were subsequently reopened. Specifically,
           MOCAS contained 10,819 contracts that had been closed and later
           reopened. Of these, 6,631 contracts were reopened between
           January 2, 2001, and July 3, 2002, or an average of 368 contracts per
           month. Inadequate DFAS, Columbus and DCMA reviews and processes,
           and lack of attention to the policies and procedures that govern the closure
           process contributed to the reopening of contracts. Contracts closed out in
           error cause unnecessary use of resources at both DFAS, Columbus and
           throughout the contracting community.

Contract Closeout Procedures
    Administering and Managing Contract Closeout. DFAS and DCMA
    personnel stated they classify contracts by parts to administer and manage them,
    such as Part A and Part B. The part letter refers to the degree of attention and
    management that the ACO or personnel at DFAS, Columbus is expected to give a
    contract. The ACO is responsible for contract closure for Part A contracts.
    DFAS, Columbus is responsible for contract closure for Part B contracts.
    Generally, Part B contracts do not require extensive review and are closed
    automatically by MOCAS.

    DFAS, Columbus Closeout Procedures. Generally, contracts should be closed
    after final delivery of goods or services, final payment, and completion of all
    administrative duties by the ACO. When a contract closes, MOCAS produces a
    daily closed contract report that is commonly referred to as the Q-Final listing.
    Contracts on the Q-Final listing were closed with funds remaining on the contract.
    When a contract appears on the Q-Final listing, the amount of funds remaining are
    de-obligated from the contract automatically by MOCAS, to be returned to the
    funding activity. If a contract is found to have been closed in error, the Contract
    Administration Report (CAR) accounting technician should process a reverse
    Q-Final to re-establish the funds de-obligated.

    Part B contracts that are Firm Fixed Price (FFP) Unilateral Purchase Orders for
    less than $25,000 close automatically upon physical completion (that is, final
    delivery of goods or services) of the contract. When final payment is made,
    MOCAS records are updated, and the contract is automatically moved to CAR
    Section 5 (closed status). FFP contracts that do not exceed $99,999 in Part B are
    also closed when final payment has been made. MOCAS records are updated,
    and any excess funds are automatically de-obligated.

    Certain types of Part A contracts can be closed out by DFAS, Columbus
    personnel. Specifically, certain cost contract types will automatically close if the
    invoice is coded as a final payment without an ACO certification and if the
    ACO’s signature is on the final invoice. Upon processing of the final voucher,


                                          2
    MOCAS records are updated, and the contract is moved to a closed status. A
    de-obligation transaction is automatically generated to remove excess funds.

    DCMA Closeout Procedures. Other Part A contracts not subject to previous
    conditions are closed upon final payment and ACO certification. The certification
    consists of a signed DLA Form 1797 requesting closure, signed Final Pay Notice
    of Last Action (NLA), and input of the Final Pay NLA. Therefore, the ACO must
    certify that all administrative actions have been completed and any excess funds
    have been reviewed. Contracts paid by a disbursing office other than DFAS,
    Columbus when a funds review cannot be performed are the only exceptions to
    this process that was identified by DCMA. Upon receipt of the ACO
    certification, a closing notice is issued to the purchasing office, MOCAS records
    are updated, and the contract is moved to CAR Section 5. Informational alerts are
    required to be forwarded to the ACO prior to final payment as advice of the status
    of physically completed contracts.

    DFAS, Columbus and DCMA policies and procedures required that adequate
    steps be taken to ensure that contracts were properly closed, thereby preventing
    the need to reopen them. However, the policies and procedures were either not
    followed or did not adequately prevent the substantial number of contracts that
    had to be reopened.

Reopening of Closed Contracts
    MOCAS records showed a balance of 10,819 contracts that had been closed and
    subsequently reopened. Of these 10,819 reopened contracts, 6,631 were reopened
    between January 2, 2001, and July 3, 2002, or an average of 368 contracts per
    month.

    To determine why such a substantial number of closed contracts had to be
    reopened, we judgmentally selected two DCMA offices that administered the
    majority of these contracts. We randomly selected and reviewed 71 contracts that
    were reopened in MOCAS. We determined that 58 were reopened because of
    errors made by DFAS, Columbus and DCMA in the closeout process. For 8 of the
    remaining 13 contracts, there was insufficient documentation to determine the
    reason the contract was reopened. The other five contracts were reopened for
    other reasons. The following table shows the results of the contracts reviewed.




                                         3
                              Results of Reviewed Contracts

                                                           Number of Contracts

            DFAS, Columbus Closed in Error                            53
            DCMA Closed in Error                                       5
            Insufficient Documentation                                 8
            Other                                                      5
                    Total                                             71

Causes for Premature Contract Closure
     The following list outlines the primary reasons DFAS, Columbus and DCMA
     personnel inappropriately closed 58 of the 71 contracts we judgmentally selected
     for review:

        •   payment invoices and indefinite delivery contract orders improperly coded
            as final,
        •   improper obligations and disbursements,
        •   missing obligations or disbursements, and
        •   overall inconsistent guidance concerning level of review.

Coding Issues and Indefinite Delivery Contracts
     Proper coding of invoices is an integral part of ensuring that contracts are not
     closed prematurely.
     Coding of Invoices. Twenty-two of the contracts were prematurely closed
     because invoices were improperly coded as final invoices. DFAS, Columbus did
     not follow established procedures in performing reviews of invoice payment
     packages to ensure that they were properly coded to prevent premature closure.
     DFAS, Columbus Desk Procedure 401, “Contract Entitlement,” states that DFAS,
     Columbus personnel should only code a payment as final if there are no
     outstanding payments and the payment will use all the money remaining.
     Otherwise, it should be coded as a partial payment.
     For example, contract numbers SP0100-97-D-CB11/0040 and DAAB07-98-D-
     R013/DG06 were inadvertently closed and had to be reopened. On each contract,
     work was performed at two separate prison facilities. One facility completed its
     portion of the contract and submitted its final voucher. The invoice was coded as
     a final payment by DFAS, Columbus, even though appropriate research by DFAS,
     Columbus personnel would have shown that the second prison facility performing
     work on the same contract had not shipped and invoiced work performed. As a
     result, the contracts were not complete and should not have been closed.




                                           4
    Indefinite Delivery Contracts. While performing a detailed review of the
    21 prematurely closed contracts discussed previously, we noted that DFAS,
    Columbus records showed that 458 indefinite delivery contracts had been
    inappropriately closed and as a result, had to be subsequently reopened.
    Three types of indefinite delivery contracts are definite-quantity, requirements,
    and indefinite-quantity. They are identified by the ninth position of the contract
    number, in this case by the letter “D.” Indefinite delivery contracts are required to
    remain open until all associated delivery orders have been physically completed
    and closed. However, our review of the 458 indefinite delivery contracts
    disclosed that DFAS, Columbus was closing indefinite delivery contracts before
    all delivery orders were completed and, as a result, had to be subsequently
    reopened.
    For example, DFAS, Columbus personnel closed contract number
    DAAL02-86-D-0021 on several occasions. Each time the contract was closed,
    the ACO had to request that the contract be reopened because performance for all
    of the associated delivery orders had not been completed. According to DCMA
    personnel, blanket purchase agreement contracts, identified by the letter “A” in
    the ninth position, and basic ordering agreements, identified by the letter “G” in
    the ninth position, are to be treated the same as indefinite delivery contracts.
    Therefore, it is important that these type of contracts remain open until
    performance on all associated delivery orders is complete.

Obligations and Disbursements
    Accurate posting of obligations and disbursements throughout the life cycle of a
    contract is essential to prevent premature contract closure.
    Processing and Posting of Obligations and Disbursements. Twenty-three of
    the prematurely closed contracts had to be reopened because either DFAS,
    Columbus or DCMA personnel discovered erroneous obligations and
    disbursements processed. For example, contract number DAAA21-85-C-0208
    was closed erroneously by DFAS, Columbus personnel. The contract was
    reopened by the ACO when a review of MOCAS data showed that DFAS,
    Columbus had recorded an obligation and disbursement on this contract to an
    accounting classification reference number (ACRN) belonging to an entirely
    different contract.
    Another example involved contract number N00014-91-C-2248. This contract
    was an FFP supply contract for the purchase of one computer. The total value of
    the contract was $42,000. The contract was paid in full by the Naval Research
    Laboratory on October 25, 1991. The contract was not closed by the Naval
    Research Laboratory, instead it was transferred to DFAS, Columbus on
    October 16, 1992. Several errors occurred subsequent to the transfer, including a
    duplicate payment of $42,000 made by DFAS, Columbus on March 27, 1998.
    The contract was automatically closed by DFAS, Columbus in April 1998 after
    the payment was posted. The contract was reopened on June 27, 2001, when
    DFAS, Columbus personnel identified the duplicate payment. A demand letter
    was issued July 12, 2001, for the overpayment. However, DFAS, Columbus
    personnel input the data erroneously in MOCAS when they reopened the contract.
    Specifically, the contract was identified as a Part A Time and Material service
    type contract rather than a FFP supply contract.


                                          5
    DCMA Obligation Reviews. Five Part A contracts were inadvertently closed by
    the ACO and had to be reopened due to improper posting of obligations. For
    example, contract number N00014-91-C-2226 was reopened on August 6, 1999,
    after inaccurate obligations that had been posted to the contract were identified.
    Had an obligation review been performed by the ACO, the inaccurate obligations
    would have been recognized prior to initial contract closure. Another example of
    a contract closed without the required ACO obligation review was contract
    number N00024-91-C-4214. This contract was reopened on December 20, 1996,
    and, at the time of the audit, was still open. There were multiple problems with
    this contract, including the fact that one of the accounting stations on the contract
    reported erroneous obligations against the contract. The ACO stated that DCMA
    personnel closed the contract in error.
    During the closeout process, the ACO was required to perform a review of the
    modification index to determine whether all modifications to the contract had
    been entered in MOCAS. This process was used to ensure that the amount
    obligated on the contract in MOCAS matched the obligated amount in the
    contract file to include increases and decreases resulting from funding
    modifications. If the contract file and MOCAS did not match, a reconciliation of
    the contract funding modifications at the ACRN level was required to be prepared
    and attached to a request to DFAS, Columbus for a contract reconciliation.
    DCMA personnel stated that the request for reconciliation was usually not done
    until all other administrative closeout requirements had been completed. ACO
    personnel were also required to ensure that the quantity on the contract was
    shipped, accepted, and paid according to the contract. Finally, after establishing
    the corrected obligated amount, the ACO was required to determine if the
    unliquidated obligation amount was correct and make a determination concerning
    any excess funds. For the five contracts we reviewed, these procedures were not
    adequately followed.

Payments and Modifications
    Twelve prematurely closed contracts had to reopened because invoices had not
    been paid, were never posted in MOCAS, or modifications identifying obligations
    were either not posted or were erroneous. For example, contract number N00024-
    92-C-6456 was inadvertently closed and was reopened on January 7, 1994.
    According to DFAS, Columbus personnel, this contract was reopened due to
    missing disbursement data for 11 invoices that had to be re-entered. At the time
    of the audit, this contract was still open. In addition, contracts were reopened
    because modifications were not processed prior to closure or to correct erroneous
    modifications input during the life cycle of the contract. Specifically, contract
    number DAAB07-96-D-L510/0305 was reopened because modification P00003,
    issued on March 28, 2000, which de-obligated funds by $2,525.45, was never
    processed. Therefore, the procurement contracting officer had to request that the
    contract be reopened and a demand letter be issued to the contractor for an
    overpayment. In another case, the ACO provided DFAS, Columbus with a DLA
    Form 1797 to reopen contract number HQ0006-94-C-0015 because modification
    P00021, which increased the total obligation value by $769,108, was not input
    into the contract.




                                          6
Contract Review Guidance
     Inconsistency in DFAS, Columbus guidance also contributed to premature
     closure. The primary issue was the level of review during the entitlement process
     versus the closeout process. Specifically, during the contract entitlement process
     for disbursements, DFAS, Columbus Desk Procedure 401, “Contract
     Entitlement,” chapter 17, requires that the accounting technician ensure that an
     invoice payment does not create a negative unliquidated obligation at contract
     level. However, DFAS, Columbus Interim Guidance 97-PRO-028, “Interim
     Guidance “Checklist” for MOCAS Contract Close-out,” specifies that the
     accounting technicians are required to determine whether there are any ACRNs
     that have offsetting debit and credit unliquidated balances during the contract
     close-out process. Performing ACRN-level reviews throughout the life cycle of
     contract disbursements, and not just at contract close-out, decreases the possibility
     of contracts being reopened due to a credit balance on any ACRN. A contract-
     level negative unliquidated obligation review does not preclude the possibility
     that there may be offsetting debit and credit balances at the ACRN level. For
     example, contract number N00123-92-D-5252/KUHL was closed with excess
     funds in the amount of $52.41. However, it also had several ACRNs with credit
     balances, requiring DFAS, Columbus to reopen the contract. ACRN-level
     reviews during the entitlement process should have prevented the overpayments
     that caused the credit balances. In addition, DFAS, Columbus personnel were not
     following their own guidance to ensure that no offsetting balances were present
     during the close-out process.

Notification of Contract Reopening
     The process DFAS, Columbus used to notify the contracting community that it
     was reopening contracts in MOCAS was inadequate. Specifically, DFAS,
     Columbus was reopening closed contracts and placing them in an open and active
     status (CAR Section 1) after the ACO had administratively closed the contracts.
     This situation has a negative impact for contracting officers because they must
     shift ACO and procurement contracting officer resources to re-establish the
     reopened contract for any administrative duties that may be required. According
     to DCMA personnel, contracts that were administratively closed should not be
     reopened to CAR Section 1 without notification to the responsible contracting
     officer. For any contracts reopened subsequent to the purging of data from
     MOCAS and placed in CAR Section 1, notification should be made to the
     appropriate contracting offices so that they may be able to track the progress of
     the contract and be able to provide any assistance to DFAS, Columbus that may
     be required. Additionally, ACOs were not made aware that their contracts had
     been closed in error and subsequently reopened. DFAS, Columbus personnel did
     not adequately annotate in the remarks field in MOCAS with clear and concise
     language that specific contracts were reopened. The remarks that were used were
     inconsistent and ambiguous.

     According to DCMA personnel, they are presently working with DFAS,
     Columbus to come up with a solution to improve the notification process.
     Therefore, we are not making additional recommendations addressing this issue.

                                           7
Effect of Inappropriately Closed Contracts
     Contracts closed out in error cause unnecessary use of resources at both DFAS,
     Columbus and throughout the contracting community. The process of closing
     contracts needs improvement to decrease the number of contracts closed in error
     and subsequently reopened. Enforcement of established desk procedures as well
     as adding the requirement for ACRN-level reviews during the entitlement process
     at the DFAS, Columbus will decrease the number of contracts closed
     inadvertently.

     Decreasing the number of contracts closed in error will aid in the transition from
     MOCAS to the new or enhanced system. However, improvements must be made
     before implementation of the new system so that contracts that require reopening
     will not be populated in the new system. Additional enhancements to the design
     of a new system−such as prompting the accounting technician to verify that all
     obligations have been recorded, all invoices have been processed, and all
     provisions of the contract related to financial transactions have been
     completed−will decrease the likelihood of inadvertent contract closure.

Management Comments on the Finding and Audit Response
     Management Comments. The Director, Defense Contract Management Agency
     nonconcurred with the finding because out of the 26,000 contracts that close each
     month, only 368 (1.4 percent) reopen each month. Therefore, they believe that
     the successful closeout rate suggests that their reviews and processes are
     satisfactory. However, they agreed that DCMA and DFAS will form a joint
     Rapid Improvement Team to address why contracts reopen, review closeout
     procedures, and recommend process improvements to prevent contracts from
     reopening in the future. The team will be chartered for 90 days beginning
     December 2, 2002, and hope to have recommendations and lessons learned by
     April 30, 2003.

     Audit Response. Contracts were being, in most cases, closed in error without the
     knowledge of DCMA activities. Therefore, unnecessary resources were being
     used by both DCMA and DFAS, especially if the error is not recognized in time
     before data drops from MOCAS and/or contract files have already been sent to
     records holding. However, we believe that the institution of the Rapid
     Improvement Team is a step in the right direction that will at least bring more
     focus on the problem of contracts closing in error and should alleviate problems
     in the future if and when a new system to replace MOCAS is brought online.




                                          8
Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Director, Defense Finance and Accounting
    Service, Columbus:

       a. Require that adequate research be performed to ensure proper coding
          of invoices to prevent premature closure of contracts.

    Defense Finance and Accounting Service, Columbus Comments. The
    Director, Commercial Pay Services DFAS Columbus concurred and stated that
    the Contract Pay Operations, Entitlement Division, is continuing efforts towards
    providing training for its personnel on the timely and accurate closeout of
    contracts. The Director stated that this effort includes ensuring that personnel are
    aware of conditions that indicate when contract closeout is appropriate. In
    addition, proper usage of type payment codes is being routinely monitored
    through daily quality review and their Front End Analysis process. Finally, the
    Director stated that within the last
    6 months, Contract Pay Operations has adopted procedures that ensure the
    accurate processing of zero dollar final vouchers, which has facilitated the timely
    and accurate closeout of numerous overage contracts.

       b. Revise Desk Procedure 401, “Contractor Entitlement,” to require
          review of invoice payments at the accounting classification reference
          number level to ensure that negative unliquidated obligations do not
          occur during the life cycle of disbursements for all new contracts until
          the transition to the new payment system.

    Defense Finance and Accounting Service, Columbus Comments. The Director
    concurred and stated that Desk Procedure 401 has provisions for the
    establishment of Negative Unliquidated Obligations only under controlled
    situations. The Director cited two memorandums previously signed out that
    emphasized and enforced this issue.

       c. Require notification and approval from the administrative
          contracting officer prior to closure of indefinite delivery contracts,
          blanket purchase agreements, and basic ordering agreements to
          ensure that all administrative and financial transactions have been
          completed for all delivery orders.

    Defense Finance and Accounting Service, Columbus Comments. The Director
    concurred and stated that indefinite delivery order contracts, blanket purchase
    agreements, and blanket ordering agreements are Contract Administration
    Reconciliation Part A contracts that are not closed by DFAS. The Director stated
    that closeout is initiated by the administrative contracting officer for these type
    contracts, negating a need for notification. The Director said that the Interim
    Guidance “checklist” for MOCAS Contract Closeout, 97-PRO-028, dated
    March 26, 1997, will be revised and reissued.



                                         9
Audit Response. Although the Director concurred, we do not agree that the type
of contracts mentioned in this recommendation can only be closed by the
administrative contracting officer. The audit disclosed that 148 of these types of
contracts were closed inadvertently because the delivery orders of the contracts
had been closed in error. Part A contracts coded as an R, S, T, U, V, or W will
close out of the Mechanization of Contract Administration Services system
without the administrative contracting officer’s prior approval. As noted in the
Finding, 458 indefinite delivery type contracts were closed and had to be
reopened because the associated delivery orders were not complete. These
indefinite delivery contracts were not closed by the administrative contracting
officer. We agree with the proposed revision of the checklist for contract
closeout, however, the Director’s response does not state how or what the revision
will entail. Therefore, we request clarification of the Director, DFAS Columbus
response to this recommendation by addressing the issue of Part A contracts being
closed without the knowledge of the administrative contracting officer.

2. We recommend that the Director, Defense Contract Management Agency
   revise current procedures to require periodic obligation reviews at
   accounting classification reference number level during the life cycle of a
   contract and at contract closeout to aid DFAS, Columbus in validating
   the accuracy of obligation balances.

Defense Contract Management Agency Comments. The Executive Director,
Contract Management Operations, Defense Contract Management Agency
nonconcurred with the recommendation. The Director stated that of the 321,000
contracts that DCMA administers, less than one percent require obligation
reviews. The Director believes that the recommendation will require two or more
reviews for each contract, and this will significantly impact their workload. The
Director further stated that they use a contract modification index to track
obligation amount changes to a contract. When an unexplained payment
discrepancy is discovered, an obligation recap and a request for audit are prepared
and submitted to DFAS. The Director believes that their current procedures are
sufficient to assist DFAS with validating the accuracy of a contract obligation.

Audit Response. Comments from the Defense Contract Management Agency
were responsive. Although the Director nonconcurred, the proposed alternative
actions are responsive. We believe the use of a Rapid Improvement Team to
review current procedures and recommend changes to prevent contracts from
being inadvertently reopened in the future is an acceptable action that should
result in improvements in the methods used to validate obligation balances.

3. We recommend that the Director, Defense Finance and Accounting
   Service develop an internal control structure in the new Defense payment
   system that will prompt the accounting technician to ensure that all
   obligations have been recorded, all invoices have been processed, and all
   provisions of the contract related to financial transactions have been
   completed.




                                    10
Defense Finance and Accounting Service, Columbus Comments. The
Director, Commercial Pay Services, Defense Finance and Accounting Service,
Columbus concurred and stated that the revised guidance in Recommendation 1.c.
will include an internal control structure for the new Defense Procurement
Payment System that will ensure that all obligations are recorded, all invoices are
processed, and all provisions of the contract related to financial transactions have
been completed.




                                     11
Appendix A. Scope and Methodology
    We reviewed records related to the reopening of contracts and reasons for the
    reopening. Our scope included 10,819 contracts that for various reasons were
    reopened and still in the MOCAS database at the time of the audit. The contracts
    were reopened between June 29, 1981, through July 3, 2002. In addition,
    MOCAS records showed that 6,631 contracts were reopened between
    January 1, 2001, and July 3, 2002, an average of 368 contracts per month.

    We judgmentally selected contracts at the two largest DCMA offices for review.
    Contracts chosen for review were randomly selected. Because the original
    database used for the selection criteria was at the ACRN level, the 71 contracts
    contained 80 line items.

    We reviewed all obtainable contract files, held discussions with ACO and DFAS,
    Columbus personnel, and obtained relevant printouts from the MOCAS database
    in order to determine the reasons for contract closures and subsequent reopening.

    We performed this audit from August 2001 through July 2002, in accordance with
    generally accepted Government auditing standards. Document retention was
    limited at both DCMA and DFAS. This limited our ability to adequately research
    all documentation, and we relied on computer printout information from MOCAS.

    Use of Computer-Processed Data. We relied on computer-processed data from
    the MOCAS database to determine the activities to visit and to determine audit
    sample selection. Although we did not perform a formal reliability assessment of
    the computer-processed data, we did not find errors that would preclude the use of
    the computer-processed data to meet the audit objective or that would change the
    conclusions in this report.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD contract management and financial management high-risk areas.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We did not perform a
    full review of the adequacy of management controls over the inadvertent closure
    and reopening of contracts. DoD has repeated reported systemic weaknesses in
    its financial management processes and systems. The DoD Statement of
    Assurance reported, “the Department’s accounting, finance, and feeder systems



                                        12
    do not fully comply with Federal financial management systems requirements.”
    MOCAS is among these systems used by DoD for financial-related operations.

Prior Coverage
    No prior coverage has been conducted on the reopening of closed contracts
    during the last 5 years.




                                       13
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
     Director for Accounting Policy

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Management Agency
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service, Columbus
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                          14
Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          15
Defense Finance and Accounting Service
Comments




                      17
18
19
Defense Contract Management Agency
Comments




                    20
21
22
Team Members
The Defense Financial Auditing Service Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

  Paul J. Granetto
  Richard B. Bird
  James L. Kornides
  John K. Issel
  Clarence E. Knight III
